App. 1
18-1859
Mendes Da Costa v. Marcucilli
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
(Filed Oct. 31, 2019)
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUM­
MARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOC­
UMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CIT­
ING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRE­
SENTED BY COUNSEL.
At a stated term of the United States
Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United
States Courthouse, 40 Foley Square, in
the City of New York, on the 31st day of
October, two thousand nineteen.

App. 2
PRESENT:
ROBERT A. KATZMANN,
Chief Judge,
CHRISTOPHER F. DRONEY,
Circuit Judge,
JEFFREY ALKER MEYER,*
District Judge.
Jose Antonio Mendes Da Costa,
Plaintiff-Appellant,
v.

18-1859

Sergeant Michael Marcucilli, Mount
Vernon Police Department, Police
Officer Pereira, badge #2064, Mount
Vernon Police Department, Police Officer
Johnny Camacho, Mount Vernon Police
Department, Detective Jesus Garcia,
Mount Vernon Police Department, Detective
Michael Martins, Town of Eastchester Police
Department, Pedro Coelho, Bakery
Management, Third Party unlawful
businesses with C.M.V., Cecilia Rodrigues,
Third Party (in flight), Private Investigator
Michael Lentini, City of Mount Vernon
Corporate Counsel, Bartender Fernando
Marques, Third Party, Carpenter Moacir
Castro, Third party and Fernando Marques,
Handyman, Attorney Hina Sherwani, Yonkers
Corporate Counsel, former Mount Vernon C.C.,
Defendants-Appellees.
* Judge Jeffrey Alker Meyer, of the United States District
Court for the District of Connecticut, sitting by designation.

App. 3
FOR PLAINTIFF-APPELLANT:
Jose Antonio Mendes da Costa,
pro se, Mount Vernon, N.Y.
FOR DEFENDANTS-APPELLEES:
No appearance.
Appeal from a judgment of the United States Dis­
trict Court for the Southern District of New York
(Seibel, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Appellant Jose Antonio Mendes da Costa, proceed­
ing pro se, appeals the district court’s order sua sponte
dismissing his complaint and the order issuing a leaveto-file sanction. Appellant also moves for judicial notice
of a February 2019 state court decision. Prior to the
present case, Appellant had initiated four separate ac­
tions in the district court. See Mendes Da Costa v. Marcucilli, S.D.N.Y. 10-cv-4125 (“Mendes Da Costa F);
Mendes Da Costa v. Lee, S.D.N.Y. 10-cv-8564 (“Mendes
Da Costa IF); Mendes da Costa v. Marques, S.D.N.Y.
13-cv-4271 (“Mendes Da Costa IIF); and Mendes Da
Costa v. Marcucilli, S.D.N.Y. 15-cv-8500 (“Mendes Da
Costa TV”). We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal.
As an initial matter, we have jurisdiction over the
appeal of both the dismissal order and the sanction or­
der. Because the district court did not set out either or­
der in a separate document, see Fed. R. Civ. P. 58(a),

App. 4
judgment was deemed entered 150 days after each or­
der was docketed, i.e., October 11, 2018 for the dismis­
sal order and November 9, 2018 for the sanction order.
Fed. R. App. P. 4(a)(7)(A)(ii). Appellant’s notice of ap­
peal was filed on June 20, 2018, and therefore it was
timely as to both orders. Fed. R. App. P. 4(a)(2) (provid­
ing that a notice of appeal filed before the entry ofjudg­
ment “is treated as filed on the date of and after the
entry”). Although Appellant only delineated the sanc­
tion order in his notice of appeal, that was the last or­
der issued by the district court and the order that
closed the case; thus, the appeal applies to “all prior
orders.” See Elliott v. City ofHartford, 823 F.3d 170,173
(2d Cir. 2016) (per curiam). Further, it is evident from
his brief that Appellant intended to appeal the dismis­
sal order as well, and no party is prejudiced. See id. at
174.
I.

Dismissal Order

District courts have the inherent authority to sua
sponte dismiss a fee-paid action as frivolous. See Fitz­
gerald v. First E. Seventh St. Tenants Corp., 221 F.3d
362, 363-64 (2d Cir. 2000) (per curiam). The dismissal
of a complaint as barred by res judicata is reviewed de
novo. Brown Media Corp. v. K&L Gates, LLP, 854 F.3d
150,157 (2d Cir. 2017). “The doctrine of res judicata, or
claim preclusion, holds that a final judgment on the
merits of an action precludes the parties or their priv­
ies from relitigating issues that were or could have
been raised in that action.” Id. (internal quotation
marks and italics omitted).

App. 5
The district court properly dismissed the complaint
as barred by res judicata. All of Appellant’s present
claims, including the cover-up claims, are identical in
form and substance to the claims raised in Mendes Da
Costa IV, which was dismissed with prejudice as frivo­
lous and for failure to comply with Fed. R. Civ. R 8. “[A]
dismissal for failure to state a claim operates as a final
judgment on the merits and thus has res judicata ef­
fects.” Garcia v. Superintendent of Great Meadow Corr.
Facility, 841 F.3d 581, 583 (2d Cir. 2016) (per curiam)
(internal quotation marks omitted); see also Nemaizer
v. Baker, 793 F.2d 58, 60 (2d Cir. 1986) (“A dismissal
with prejudice has the effect of a final adjudication on
the merits . . . and bars future suits brought by the
plaintiff upon the same cause of action.”).
Appellant’s addition of one new defendant in this
action who was not named in Mendes Da Costa IV does
not alter the outcome. Appellant fails to make any spe­
cific allegations against that defendant throughout the
complaint. Instead, he details facts that involve the
same set of events as Mendes Da Costa IV and does not
explain why he could not have brought any such (un­
specified) claims against the new defendant in Mendes
Da Costa IV. See Burton v. Undercover Officer, 671
F. App’x 4, 5 (2d Cir. 2016) (summary order) (noting
that defendant who was not party to prior lawsuit may
invoke collateral estoppel defensively against plaintiff
who previously lost on the merits).
Finally, Appellant’s argument that the district
court was biased against him is unavailing. The dis­
trict court correctly described Appellant’s litigation
history, and its decisions dismissing Mendes da Costa

App. 6
III and Mendes Da Costa IV survived review by this
Court. In any event, a district court’s decisions typi­
cally do not support a claim of judicial bias, and Appel­
lant fails to proffer any other evidence of bias. See
Liteky v. United States, 510 U.S. 540, 555 (1994) (“[J]udicial rulings alone almost never constitute a valid
basis for a bias or partiality motion.”); Chen v. Chen
Qualified Settlement Fund, 552 F.3d 218, 227 (2d Cir.
2009) (per curiam) (same).
II. Sanction Order
We review the imposition of a leave-to-file sanction
for abuse of discretion. Gollomp v. Spitzer, 568 F.3d
355, 368 (2d Cir. 2009). A district court may impose a
leave-to-file sanction on “litigants who abuse the judi­
cial process,” such as by filing “repetitive and frivolous
suits.” Shafii v. British Airways, PLC, 83 F.3d 566, 571
(2d Cir. 1996). Prior to imposing a sanction, a court
must give notice and opportunity to be heard, see Moates
v. Barkley, 147 F.3d 207, 208 (2d Cir. 1998) (per curiam),
and the sanction must be “appropriately narrow,” Bd.
of Managers of2900 Ocean Ave. Condo, v. Bronkovic, 83
F.3d 44, 45 (2d Cir. 1996) (per curiam).
Here, the district court did not abuse its discretion
in imposing the filing injunction. The court warned Ap­
pellant in 2016, in his fourth action in that court and
the third action to be dismissed as frivolous, that the
filing of future frivolous litigation could result in a
leave-to-file sanction. When that warning failed to de­
ter Appellant from filing the present, nearly identical
action, the district court ordered Appellant to show
cause why a leave-to-file sanction should not issue. The

App. 7
court thus gave him an opportunity to be heard, and
considered his response, prior to imposing the leave-tofile sanction. Further, the filing injunction is “appropri­
ately narrow” because it is limited to civil actions filed
in the Southern District of New York. See Iwachiw v.
N.Y. State Dep’t of Motor Vehicles, 396 F.3d 525,529 (2d
Cir. 2005) (per curiam) (finding that a similar leave-tofile sanction was appropriate because “it does not ex­
tend to filings in other federal district courts or the
New York state courts”). And the sanction is akin to the
type of leave-to-file sanctions that we typically impose
on similarly vexatious litigants. See, e.g.,Xiu Jian Sun
v. Dillon, 699 F. App’x 90, 91 (2d Cir. 2017) (summary
order) (directing litigant to show cause “why he should
not be required to seek leave of this Court before filing
any appeals or other documents”). Moreover, contrary
to Appellant’s assertion, the sanction does not violate
his First Amendment rights. See Abdullah v. Gatto, 773
F.2d 487, 488 (2d Cir. 1985) (per curiam).
Finally, we deny Appellant’s motion for judicial no­
tice as moot.
We have considered all of Appellant’s remaining
arguments and find them to be without merit. Accord­
ingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
[SEAL]
Is/ Catherine O’Hagan Wolfe

App. 8
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
JOSE ANTONIO
MENDES da COSTA,
Plaintiff,
-againstM.V.P.D. PO. PEREIRA, et al.,

18-CV-2948 (CS)
BAR ORDER UNDER
28 U.S.C. § 1651
(Filed Jun. 12, 2018)

Defendants.
CATHY SEIBEL, United States District Judge:
Plaintiff filed this action pro se. On May 14, 2018,
the Court dismissed the action as barred under the
doctrine of claim preclusion, noted that Plaintiff had
been warned that if he continued such filings he would
be subjected to sanctions, and directed Plaintiff to sub­
mit a declaration setting forth good cause why the
Court should not issue an order barring him from filing
new civil actions in this Court without prior permis­
sion. Plaintiff filed a declaration on June 6, 2018, but
his arguments against imposing the bar order are in­
sufficient.
DISCUSSION
Plaintiff uses the declaration as another oppor­
tunity to challenge actions taken by the defendants
and this Court in his prior case, Mendes da Costa v.
Marcucilli, No. 10-CV-4125 (CS) (S.D.N.Y. Dec. 14,2012)
(Mendes da Costa I). He contends that because he is

App. 9
not attorney who is knowledgeable about the law, his
prior pleadings were insufficiently or incorrectly pleaded
but that there exist genuine issues of material fact that
the Court should consider. Plaintiff asks the Court to
grant him another opportunity to amend his claims in
Mendes da Costa v. Marcucilli, No. 15-CV-8500 (CS)
(S.D.N.Y. Jan. 26, 2017) (Mendes da Costa II), or alter­
natively, to consolidate this action with that case. He
then proceeds to reassert the same claims - that the
defendants in Mendes da Costa I fabricated evidence
and committed other wrongs - that the Court dis­
missed in Mendes da Costa II and this action. Plain­
tiff’s declaration fails to provide sufficient reason why
the Court should not impose a filing bar.
Because of Plaintiff’s pattern of repetitive and
nonmeritorious litigation, the Court bars Plaintiff
from filing any future civil actions in this Court with­
out first obtaining from the Court leave to file. See 28
U.S.C. § 1651.
CONCLUSION
The Clerk of Court is directed to mail a copy of this
order to Plaintiff and note service on the docket. The
Court bars Plaintiff from filing future civil actions in
this Court without first obtaining from the Court leave
to file. See 28 U.S.C. § 1651. Any motion for leave to file
must be captioned “Application Pursuant to Court Or­
der Seeking Leave to File,” and must attach a copy of
the proposed complaint and a copy of this order. If
Plaintiff violates this order and files an action without

App. 10
first filing a motion for leave to file, the Court will dis­
miss the action for failure to comply with this order.
Plaintiff is warned that the continued submission of
frivolous or nonmeritorious documents may result in
the imposition of additional sanctions, including mon­
etary penalties. See id. The Clerk of Court is further
directed to terminate all other pending matters and to
close this action.
The Court certifies, pursuant to 28 U.S.C. § 1915(a)(3),
that any appeal from this order would not be taken in
good faith and therefore in forma pauperis status is
denied for the purpose of an appeal. Cf. Coppedge v.
United States, 369 U.S. 438, 444-45 (1962).
SO ORDERED.
Dated: June 12, 2018
White Plains, New York
/s/

Cathy Seibel
Cathy Seibel
United States District Judge

App. 11
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
JOSE ANTONIO
MENDES da COSTA,

18-CV-2948 (CS)

ORDER OF DISMISSAL
ANDTOSHOW
CAUSE UNDER
-against28 U.S.C. § 1651
M.V.P.D. PO. PEREIRA, et al.,
(Filed May 14, 2018)
Defendants.
Plaintiff,

Cathy Seibel, United States District Judge:
Plaintiff, brings this pro se action, for which the
filing fee has been paid, alleging that Defendants de­
prived him of his rights in connection with the litiga­
tion of a prior federal case and a state-court criminal
prosecution. The Court dismisses the complaint for the
reasons set forth below.
STANDARD OF REVIEW
The Court has the authority to dismiss a com­
plaint, even when the plaintiff has paid the filing fee,
if it determines that the action is frivolous, Fitzgerald
v. First E. Seventh St. Tenants Corp., 221 F.3d 362,36364 (2d Cir. 2000) (per curiam) (citing Pillay v. INS, 45
F.3d 14,16-17 (2d Cir. 1995) (per curiam) (holding that
Court of Appeals has inherent authority to dismiss
frivolous appeal)), or that the Court lacks subject mat­
ter jurisdiction, Ruhrgas AG v. Marathon Oil Co., 526
U.S. 574, 583 (1999). The Court is obliged, however, to

App. 12
construe pro se pleadings liberally, Harris v. Mills, 572
F.3d 66, 72 (2d Cir. 2009), and interpret them to raise
the “strongest [claims] that they suggest,” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 474-75 (2d Cir.
2006) (emphasis in original) (internal quotation marks).

BACKGROUND
In 2010, Plaintiff brought an action under 42 U.S.C.
§ 1983 against four members of the Mount Vernon Po­
lice Department, asserting claims of false arrest and
use of excessive force stemming from an incident on
November 27, 2008. The case, which was assigned to
this Court, ended with a stipulation of settlement and
dismissal. See Mendes da Costa v. Marcucilli, No. 10-CV4125 (CS) (S.D.N.Y. Dec. 14,2012) CMendes da Costa I).
In 2015, Plaintiff filed a 312-page complaint against
the same defendants that he sued in the first case, at­
torneys employed by the City of Mount Vernon’s Law
Department, and four private Mount Vernon citizens.
See Mendes da Costa u. Marcucilli, No. 15-CV-8500
(CS) (S.D.N.Y. Oct. 28, 2015) CMendes da Costa II).
Plaintiff’s assertions were largely incomprehensible
but made multiple references to Mendes da Costa I, in­
dicating deprivation of his rights and criminal conduct
arising from the litigation of the case and events after
the case was settled. Mendes da Costa II was again as­
signed to this Court, and on November 13, 2015,1 di­
rected Plaintiff to file an amended complaint that
complied with Rule 8 of the Federal Rules of Civil Pro­
cedure. Plaintiff subsequently filed an amended com­
plaint in which he again made references to Mendes da

App. 13
Costa I and asserted false arrest, malicious prosecu­
tion, and other claims arising out of his state-court
prosecution in the Mount Vernon City Court. On Jan­
uary 27, 2016,1 dismissed the case as frivolous and for
failing to comply with Rule 8. Plaintiff appealed, and
on January 10, 2017, the Second Circuit issued a sum­
mary order affirming the judgment. See Mendes Da
Costa v. Marcucilli, 675 F. App’x 15 (2d Cir. 2017).
Plaintiff now brings this action under 42 U.S.C.
§§ 1983 and 1985 against 11 defendants, 10 of whom
he previously sued in Mendes da Costa II. He asserts
that the defendants conspired to violate his rights in
Mendes da Costa I by fabricating “unconstitutional
inculpatory evidence” and suppressing evidence favor­
able to him prior to the settlement of the case. (Doc. 1
at 7-9.) Plaintiff also claims that I maintained “literal
bias prejudice” and was complicit with the City of
Mount Vernon Law Department in violating his rights.
(Id. at 8.) He further asserts that he was unlawfully
arrested on December 6, 2012, maliciously prosecuted,
and that the Defendants’ actions led to his May 2015
conviction in the Mount Vernon City Court. Plaintiff
seeks monetary damages for the alleged deprivations
in Mendes da Costa I and the state-court prosecution.
DISCUSSION
A. Claim Preclusion
The doctrine of claim preclusion, also known as res
judicata, limits repetitious suits, establishes certainty
in legal relations, and preserves judicial economy. See

App. 14
Curtis v. Citibank, N.A., 226 F.3d 133, 138 (2d Cir.
2000). Under the doctrine, “a final judgment on the
merits of an action precludes the parties or their priv­
ies from relitigating issues that were or could have
been raised in that action to support [a subsequent
civil] action.” Proctor v. LeClaire, 715 F.3d 402, 411 (2d
Cir. 2013) (internal quotation marks omitted, first al­
teration in original). The doctrine applies in a later lit­
igation “if an earlier decision was (1) a final judgment
on the merits, (2) by a court of competent jurisdic­
tion, (3) involving the same parties or their privies, and
(4) involving the same cause of action.” In re Adelphia
Recovery Trust, 634 F.3d 678, 694 (2d Cir. 2011) (inter­
nal quotation marks omitted). “A party cannot avoid
the preclusive effect of res judicata by asserting a new
theory or a different remedy.” Brown Media Corp. v.
Ked, Gates, LLP, 854 F.3d 150, 157 (2d Cir. 2017) (in­
ternal quotation marks omitted).
To determine if a claim could have been raised in
an earlier action, courts look to whether the present
claim arises out of the same transaction or series of
transactions asserted in an earlier action. See Pike v.
Freeman, 266 F.3d 78, 91 (2d Cir. 2001). And “a dismis­
sal for failure to state a claim operates as ‘a final judg­
ment on the merits and thus has res judicata effects.
Garcia v. Superintendent of Great Meadow Corr. Facil­
ity, 841 F.3d 581, 583 (2d Cir. 2016) (per curiam) (quot­
ing Berrios v. N.Y.C. Hous.Auth., 564 F.3d 130,134 (2d
Cir. 2009)). Further, although claim preclusion is an af­
firmative defense to be pleaded in a defendant’s an­
swer, see Fed. R. Civ. R 8(c), res judicata may be raised
5 99

App. 15
and addressed sua sponte. See, e.g., Doe v. Pfrommer,
148 F.3d 73, 80 (2d Cir. 1998) (affirming sua sponte ap­
plication of collateral estoppel in motion for summary
judgment); Salahuddin v. Jones, 992 F.2d 447, 449 (2d
Cir. 1993) (per curiam) (“The failure of a defendant to
raise res judicata in answer does not deprive a court of
the power to dismiss a claim on that ground”).
It is clear that Plaintiff brings this action seeking
to relitigate his prior claims in the complaints before
this Court. He challenges actions taken by the defend­
ants and this Court in Mendes da Costa I, which was
dismissed with prejudice on December 14, 2012, based
on a settlement agreement reached by all parties. Be­
cause Mendes da Costa I was dismissed with prejudice,
Plaintiff may not bring another action attacking that
judgment. See Marvel Characters, Inc. v. Simon, 310
F.3d 280, 287 (2d Cir. 2002) (“It is clear that a dismis­
sal, with prejudice, arising out of a settlement agree­
ment operates as a final judgment for res judicata
purposes.”).
Plaintiff further asserts claims of false arrest, ma­
licious prosecution, and other claims arising out of his
arrest and prosecution - many of the same claims he
sought to bring in Mendes da Costa II, which was dis­
missed as frivolous and under Rule 8.1 As Plaintiff
1 Even if Plaintiffs claims were not precluded, they are not
viable. His false arrest claim is time-barred because he filed this
action outside the three-year statute of limitations period govern­
ing § 1983 claims. See Owens v. Okure, 488 U.S. 235 (1989); see also
Wallace v. Kato, 549 U.S. 384, 397 (2007) (holding that false ar­
rest claim accrues at the time the claimant is detained pursuant

App. 16
seeks to sue many of the same defendants or their priv­
ies and asserts the same or variations of the same
claims concerning the same transactions, these claims
are also precluded. The Court therefore dismisses Plain­
tiff’s complaint as barred under the doctrine of claim
preclusion.
District courts generally grant a pro se plaintiff an
opportunity to amend a complaint to cure its defects,
but leave to amend is not required where it would be
futile. See Hill v. Curcione, 657 F.3d 116,123-24 (2d Cir.
2011); Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir.
1988). Because the defects in Plaintiff’s complaint can­
not be cured with an amendment, the Court declines
to grant Plaintiff leave to amend his complaint.

to legal process). Further, as Plaintiff admits that he was con­
victed and he does not allege that the conviction was reversed,
expunged, or otherwise declared invalid, his false arrest, mali­
cious prosecution, and other claims challenging his arrest and
prosecution are barred by the favorable termination rule set forth
in Heck v. Humphrey, 512 U.S. 477, 486-87 (1994). As the United
States Supreme Court explained:
a state prisoner’s § 1983 action is barred (absent prior
invalidation) - no matter the relief sought (damages or
equitable relief), no matter the target of the prisoner’s
suit (state conduct leading to conviction or internal
prison proceedings) - if success in that action would
necessarily demonstrate the invalidity of confinement
or its duration.
Wilkinson v. Dotson, 544 U.S. 74, 81-82 (2005) (italics in original).
Plaintiff therefore fails to state a claim for relief in connection
with his December 6, 2012 arrest and subsequent state-court
prosecution.

App. 17
B. Order to Show Cause
In addition to Mendes da Costa I, Mendes da Costa
II, and this action, Plaintiff has filed several other ac­
tions in this Court, which were dismissed sua sponte.
See Mendes da Costa v. Marques, No. 13-CV-4271
(LAP) (S.D.N.Y. Dec. 19, 2013) (dismissal for failure
to state a claim on which relief may be granted and
for lack of subject matter jurisdiction), appeal dis­
missed, No. 14-214 (2d Cir. June 11, 2014); Mendes
da Costa v. Lee, No. 10-CV-8564 (LAP) (S.D.N.Y. May 2,
2011) (dismissal because the prosecutor-defendants
were immune from suit and under the Rooker-Feldman
doctrine). Because Plaintiff’s continued submission of
nonmeritorious actions places an undue burden on the
Court, I warned him in Mendes da Costa II that if he
continues to file duplicative or frivolous litigation, I
will enter an order barring him from filing new civil
actions in this Court without obtaining leave of the
Court.
In light of Plaintiff’s failure to heed my warning,
he is ordered to show cause by declaration why he
should not be barred from filing any further actions in
this Court without first obtaining permission to file his
complaint. See 28 U.S.C. § 1651; see also Moates v. Bar­
kley, 147 F.3d 207,208 (2d Cir. 1998) (per curiam) (“The
unequivocal rule in this circuit is that the district court
may not impose a filing injunction on a litigant sua
sponte without providing the litigant with notice and
an opportunity to be heard.”). Within thirty days of the
date of this order, Plaintiff must submit to this Court
a written declaration setting forth good cause why the

App. 18
Court should not impose this injunction upon him. If
Plaintiff fails to submit a declaration within the time
directed, or if Plaintiff’s declaration does not set forth
good cause why this injunction should not be entered,
he will be barred from filing any future actions in this
Court unless he first obtains permission from this
Court to do so.
CONCLUSION
The Clerk of Court is directed to mail a copy of this
order to Plaintiff and note service on the docket. Plain*
tiff’s complaint is dismissed because it is barred under
the doctrine of claim preclusion. Plaintiff shall have
thirty days to show cause by declaration why an order
should not be entered barring him from filing any fu­
ture action in this Court without prior permission. See
28 U.S.C. § 1651. A declaration form is attached to this
order.
Although Plaintiff paid the filing fee for this ac­
tion, the Court certifies under 28 U.S.C. § 1915(a)(3)
that any appeal from this order would not be taken in
good faith, and therefore in forma pauperis status is
denied for the purpose of an appeal. See Coppedge v.
United States, 369 U.S. 438, 444-45 (1962).

App. 19
SO ORDERED.
Dated: May 14, 2018
White Plains, New York
/s/

Cathy Seibel
CATHY SEIBEL
U.S.D.J.

App. 20
Appellate Term of the Supreme Court
of the State of New York for the
9th & 10th Judicial Districts
Submitted - December 18, 2018 Term
TERRY JANE RUDERMAN, J.P.
BRUCE E. TOLBERT
JERRY GARGUILO, JJ
x

The People of the State of
New York, Respondent, v
Jose Dacosta, Appellant.

DECISION & ORDER
(Filed Feb. 28, 2019)
Appellate Term
Docket No.
2015-1433 W CR

Lower Court # 12-4996
x

Feldman and Feldman (Arza Feldman and Steven
A. Feldman of counsel), for appellant.
Westchester County District Attorney (Jennifer
Spencer and William C. Milaccio of counsel) for re­
spondent.
Appeal from a judgment of the City Court of
Mount Vernon, Westchester County (Helen M. Black­
wood, J.), rendered May 12, 2015. The judgment con­
victed defendant, after a nonjury trial, of harassment
in the second degree, and imposed sentence.
ORDERED that the judgment of conviction is re­
versed, on the law, and, as a matter of discretion in the
interest of justice, the accusatory instrument is dis­
missed.

App. 21
Defendant was charged in a superseding infor­
mation with harassment in the second degree (Penal
Law § 240.26 [2]). By order dated January 9, 2013, the
City Court ordered a competency hearing pursuant to
CPL article 730. However, the court proceeded to trial
without having conducted the hearing, following which
it found defendant guilty of the charged offense.
It is well settled that once a trial court determines
that a competency examination is warranted, the fail­
ure to strictly follow the procedures mandated by CPL
article 730.30 deprives a defendant of the right to a full
and fair determination of his mental capacity to stand
trial (see People v Armlin, 37 NY2d 167 [1975]; People
v Hussari, 5 AD3d 697 [2004]; People v Torres, 162
AD2d 482 [1990]).
We find that, due to the passage of time (approxi­
mately three years and six months) since the judgment
of conviction was rendered, and as the People concede
that a reconstruction hearing of defendant’s mental ca­
pacity to stand trial is not possible in this case (see Peo­
ple v Peterson, 40 NY2d 1014 [1976]), the judgment of
conviction must be reversed (see People v Torres, 162
AD2d at 483; cf. People v Hussari, 17 AD3d 483 [2005]).
Since defendant has served his sentence and no peno­
logical purpose would be served in remitting the case
for further proceedings, we agree with the People that,
under the circumstances, the accusatory instrument
should be dismissed (see People v Kwas, 54 Misc 3d
138[A], 2017 NY Slip Op 50147[U] [App term, 2d Dept,
9th & 10th Jud Dists 2017]).

App. 22
Accordingly, the judgment of conviction is re­
versed, and, as a matter of discretion in the interest of
justice, the accusatory instrument is dismissed.
RUDERMAN, J.P. TOLBERT and GARGUILO,
JJ., concur.
ENTER:
/s/ Paul Kenny
Paul Kenny
Chief Clerk

App. 23
CERTIFICATE OF DISPOSITION SEC. 380.60 CPL
STATE OF NEW YORK -MOUNT VERNON
CITY COURT - CRIMINAL DIVISION
THE PEOPLE OF THE STATE OF NEW YORK
AGAINST
JOSE DACOSTA
DOCKET #: 12-4996

DOB: 10-29-1965

The above named defendant having been brought
before Hon. Helen M. Blackwood, Judge of the MOUNT
VERNON CITY COURT, charged with:
PL-120.50-03 -AM-, 3-STALKING - 3RD
Red. to PL-240.26 -V -, 2-HARASSMENT 2NDPHY CONTACT
PL-240.26-02 -V-, 2-HARASSMENT 2ND-FOLLOW
PERSO
was thereafter on May 12, 2015 duly disposed of as fol­
lows:
PLEAD GUILTY TO REDUCED CHARGE HARASS­
MENT 2ND (VIOLATION) PL-240.26 01 IN FULL
SATISFACTION
IT IS ADJUDGED THAT SUCH DEFENDANT
____

Be imprisoned in the WESTCHESTER
County Jail for a term of________________

____

Paid the fine(s) of______________________

X

Received a CONDITIONAL DISCHARGE.
Received an UNCONDITIONAL DISCHARGE.

App. 24
probation under the
Received
supervision of the WESTCHESTER County
Probation Department.
X

Pay a Mandatory Surcharge of $95.00 and a
Crime Victim Fee of $25.00.

X_ Other: Performed 30 Hours of Community
Service.
Date at the CITY OF MOUNT VERNON on April 4,
2017
/s/ Lawrence E. Darden, Jr.
LAWRENCE E. DARDEN, JR.
CHIEF CLERK

App. 25
COUNTY OF WESTCHESTER
Incident # 12-44659
Non-Family TOP: Vera Almeda
MISDEMEANOR INFORMATION
THE PEOPLE OF THE STATE OF NEW YORK
-againstJOSE DACOSTA 80 Gramatan Ave, Apt #40, Harri­
son, NY
(DOB: 10/29/1965)
Defendant
Be it known that the complainant herein Officer
PEREIRA, of the City of Mount Vernon Police De­
partment, Westchester County, New York, accuses
the defendant named above of the following offenses
committed at and near Gramatan Avenue and West
Sidney Avenue, City of Mount Vernon, New York on
or on and about between the months of October 1,2012
to December 6th 2012.
COUNT ONE: The Offense of STALKING IN THE
THIRD DEGREE, a violation of Penal Law PL
120.50.03 AM3
The Defendant(s) at the above date, time and place did
with intent to harass, annoy or alarm a specific person,
intentionally engage in a course of conduct directed at
such person which is likely to cause such person to rea­
sonably fear physical injury and serious physical in­
jury, the commission of a sex offense against, and the

App. 26
kidnapping, unlawful imprisonment and death of such
person or a member of such person’s immediate family.
To wit: At the above date, time and place, and over the
course a period of time the defendant has consistently
stood in front of Vera Almeda’s beauty salon where he
curses and makes statements to her like “y°u are
whore, you will die.” He has also been following Ms.
Almeda around Mount Vernon for awhile when she ex­
its her beauty salon. The defendants’ action caused an­
noyance and alarm to the victim. Said course of
conduct directed at the victim was also likely to cause
the victim to be placed in reasonable fear of physical
injury or serious physical injury.
The above allegations of fact are made by the com­
plainant herein upon information and belief, with the
sources of complainant’s information and the grounds
for her belief being police investigation and supporting
deposition.
NOTICE: PURSUANT TO THE PENAL LAW SEC­
TION 210.45, IT IS A CRIME PUNISHABLE AS
A CLASS A MISDEMEANOR TO KNOWINGLY
MAKE A FALSE STATEMENT HEREIN.
December 7, 2012

[Illegible] 2064
Signed

Be it known that the complainant herein Officer, Yant.
of the City of Mount Vernon Police Department,
Westchester County, New York, accuses the defendant
named above of the following offenses committed at
and near Gramatan Avenue and West Sidney Avenue,

App. 27
City of Mount Vernon, New York on or on and about
between the months of October 1, 2012 to December
6th 2012.
COUNT ONE: The Offense of STALKING IN THE
THIRD DEGREE, a violation of Penal Law PL 120.50
03 AM3
COUNT TWO: The Offense of HARASSMENT 2NDPHYSICAL CONTACT, a violation of Penal Law
PL2402602 V2
The Defendant(s) at the above date, time and place did
with intent to harass, annoy or alarm a specific person,
intentionally engage in a course of conduct directed at
such person which is likely to cause such person to rea­
sonably fear physical injury and serious physical in­
jury, the commission of a sex offense against, and the
kidnapping, unlawful imprisonment and death of such
person or a member of such person’s immediate family.
The Defendant(s) at the above date, time and place did
with intent to harass, annoy or alarm another person,
he or she follows a person in or about a public place or
places.
To wit: At the above date, time and place, and over the
course of nearly two months and beyond, the defendant
has consistently stood in front of Vera Almeda’s beauty
salon where he curses and makes statements to her
like “y°u are whore, you will die.” He has also been fol­
lowing Ms. Almeda around Mount Vernon for awhile
when she exits her beauty salon. The defendants’ ac­
tion caused annoyance and alarm to the victim and
served no legitimate purpose. Said course of conduct

App. 28
directed at the victim was also likely to cause the vic­
tim to be placed in reasonable fear of physical injury
or serious physical injury,
The above allegations of fact are made by the com­
plainant herein upon information and belief, with the
sources of complainant’s information and the grounds
for her belief being police investigation and supporting
deposition.
NOTICE: PURSUANT TO THE PENAL LAW, SEC­
TION 210.45, IT IS A CRIME PUNISHABLE AS A
CLASS A MISDEMEANOR TO KNOWINGLY
MAKE A FALSE STATEMENT HEREIN.
December 10, 2012

Officer Yant #2097
Signed

App. 29
****LOST BAIL RECEIPT AFFIDAVIT***
STATE OF NEW YORK:
COUNTY OF WESTCHESTER:
CITY OF MOUNT VERNON:
DOCKET# 12-4996
RECEIPT # 71853
Jose Nogueira being duly sworn, deposes and says:
On 1/22/13 s/he deposited with the Clerk of the
City Court of Mount Vernon, the sum of $2000.
as
bail for the appearance of Jose DaCosta in the
City Court of Mount Vernon, N.Y., upon a charge of
PL-120.50 (Stalking-3rd) Jose DaCosta
S/He has lost or misplaced the receipt, therefore
S/he states that no part of the $2000.00 has been as­
signed.
/s/X Jose Nogueira
Depositor
Sworn to before me this
12th day of May. 2015
/s/ [Illegible]
Clerk of Court

App. 30
Received from the Clerk of the City of Mount Vernon,
N.Y. the sum of $1940.00
representing the return of cash bail deposited.
5/12/15
Dated

/s/X Jose Nogueira
Depositor

App. 31
Certificate #: U-000000689-F
[SEAL]

Page 1 of 1

MOUNT VERNON CITY COURT
2 Roosevelt Square North Floor 2nd,
Mount Vernon, NY 10550
Phone: (914) 831-6440 Fax: (914) 824-5511
FEE
Non-Public
Version

The People of the State Certificate of Disposition
of New York
Docket Number:
CR-02554-12
vs.
Legacy Docket Number:
Jose Dacosta
12-4996
Defendant DOB: 10/29/1965
Arrest Date: 12/06/2012
Arraignment Date: 12/07/2012
THIS IS TO CERTIFY that the undersigned has ex­
amined the files of the Mount Vernon City Court
concerning the above entitled matter and finds the
following:
Count 1:
Arraignment Charge: PL 120.50 03 AM Stalking
3rd:Threat Injury **SEALED 160.55**
Charge Weight: AM
Disposition: Reduced to (Count #2)
Disposition Date: 11/17/2014

App. 32

Count 3:
Arraignment Charge: PL 240.26 02 V Harassment2nd:Follow Person **SEALED 160.55**
Charge Weight: V
Disposition: Covered by (Count #2)
Disposition Date: 11/17/2014
Count 2:
Incident Date: 12/06/2012
Conviction Charge: PL 240.26 **SEALED 160.55**
Charge Weight: V
Conviction Charge Description: Harassment2nd:Phy Contact
Conviction Type: Pled Guilty
Conviction Date: 11/17/2014
Sentence Highlights:
•

Conditional Discharge (1 Years)

•

Surcharge (MS ($95.00), CVAE ($25.00) - due
05/12/2015)

A balance remains due and owing for fines, fees
and/or surcharges imposed at sentence.
Dated: January 14. 2020

/s/ [Illegible]__________
Chief Clerk/Clerk
of the Court

App. 33
CAUTION: THIS DOCUMENT IS NOT OFFICIAL
UNLESS EMBOSSED WITH THE COURT SEAL
It shall be an unlawful discriminatory practice, unless
specifically required or permitted by statute, for any
person, agency, bureau, corporation or association, in­
cluding the state and any political subdivision thereof,
to make any inquiry about, whether in any form of ap­
plication or otherwise, or to act upon adversely to the
individual involved, any arrest or criminal accusation
of such individual not then pending against that indi­
vidual which was followed by a termination of that
criminal action or proceeding in favor of such individ­
ual, as defined in subdivision two of section 160.50 of
the criminal procedure law, or by a youthful offender
adjudication, as defined in subdivision one of section
720.35 of the criminal procedure law, or by a conviction
for a violation scaled pursuant to section 160.55 of the
criminal procedure law or by a conviction which is
sealed pursuant to section 160.58 or 160.59 of the crim­
inal procedure law, in connection with the licensing,
employment or providing of credit or insurance to such
individual; provided, further, that no person shall be
required to divulge information pertaining to any ar­
rest or criminal accusation of such individual not then
pending against that individual which was followed by
a termination of that criminal action or proceeding in
favor of such individual, as defined in subdivision two
of section 160.50 of the criminal procedure law, or by a
youthful offender adjudication, as defined in subdivi­
sion one of section 720.35 of the criminal procedure
law, or by a conviction for a violation sealed pursuant

App. 34
to section 160.55 of the criminal procedure law, or by a
conviction which is sealed pursuant to section 160.58
or 160.59 of the criminal procedure law. The provisions
of this subdivision shall not apply to the licensing ac­
tivities of governmental bodies in relation to the regu­
lation of guns, firearms and other deadly weapons or
in relation to an application for employment as a police
officer or peace officer as those terms are defined in
subdivisions thirty-three and thirty-four of section
1.20 of the criminal procedure law; provided further
that the provisions of this subdivision shall not apply
to an application for employment or membership in
any law enforcement agency with respect to any arrest
or criminal accusation which was followed by a youth­
ful offender adjudication, as defined in subdivision one
of section 720.35 of the criminal procedure law, or by a
conviction for a violation sealed pursuant to section
160.55 of the criminal procedure law, or by a conviction
which is sealed pursuant to section 160.58 or 160.59 of
the criminal procedure law. [Executive Law § 296 (16)]
Conviction charges may not be the same as the original
arrest charges.
Arraignment charges may not be the same as the orig­
inal arrest charges.
CPL 160.55: Official records related to the arrest and
prosecution on file with the Division of Criminal Jus­
tice Services, police agencies and/or the prosecutor’s of­
fice are sealed, however, court records remain available
for public inspection.

App. 35
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 11th day of December, two
thousand nineteen.
Jose Antonio Mendes Da Costa,
Plaintiff - Appellant,
v.

l

ORDER
Sergeant Michael Marcucilli,
Mount Vernon Police Department, (Filed Dec. 11, 2019)
Police Officer Pereira, badge
Docket No: 18-1859
#2064, Mount Vernon Police
Department, Police Officer
Johnny Camacho, Mount Vernon
Police Department, Detective
Jesus Garcia, Mount Vernon
Police Department, Detective
Michael Martins, Town of
Eastchester Police Department,
Pedro Coelho, Bakery Management,
Third Party unlawful businesses
with C.M.V., Cecilia Rodrigues,
Third Party (in flight), Private
Investigator Michael Lentini,
City of Mount Vernon Corporate
Counsel, Bartender Fernando

App. 36
Marques, Third Party, Carpenter
Moacir Castro, Third party and
Fernando Marques, Handyman,
Attorney Hina Sherwani, Yonkers
Corporate Counsel, former
Mount Vernon C.C.,
Defendants - Appellees.
Appellant, Jose Antonio Mendes Da Costa, filed a
' petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the ap­
peal has considered the request for panel rehearing,
and the active members of the Court have considered
the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is de­
nied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

*'

